CERTIFICATE OF COMPLIANCE WITH WORD COUNT
CERTIFICATE OF COMPLIANCE
No. 2020Thomas Wilkins (Pro Se)
Petitioner(s)

On Petition for Writ of Certiorari to the United States District Court for the
Eastern District of California l:10-cv-00674, l:13-cv-01943(Related),
the United States International Trade Commission
United States Patent and Trademark Office
and
United States Court of Appeals for the Federal Circuit
Case 2020-141 ECF. No. 6,
August 14, 2020.
Respondent(s)
As required by Supreme Court Rule 33.1(h), I certify that the petition
for a writ of certiorari contains less than 8000 words, excluding the parts of the
petition that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury under the law of the United States of America
that the foregoing is true and correct.
—v/
Thomas Wilkins September/272020.

/‘f <2

5

crfA-^ay’ ^

I

